Evaluation Report




OIG-13-055
GENERAL MANAGEMENT: Treasury Has Policies and Procedures
to Safeguard Classified Information But Implementation Needs to
Be Improved
September 27, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Evaluation Report ...................................................................................... 1

Background ..................................................................................................      2

Findings.......................................................................................................    4

    Classified Emails Were Often Improperly Marked ............................................                    4

    Treasury’s SF311 Reporting to the Information Security Oversight Office
       Was Incomplete and Inaccurate ..............................................................                5

    Treasury’s Self-Inspection Program Needs Improvement..................................                         6

Recommendations .........................................................................................          8

Appendices

Appendix     1:          Objectives, Scope, and Methodology .....................................                 11
Appendix     2:          Management Response ........................................................             14
Appendix     3:          Major Contributors to This Report..........................................              16
Appendix     4:          Report Distribution ..............................................................       17

Abbreviations

    ISOO                 Information Security Oversight Office
    OFAC                 Office of Foreign Assets Control
    OIA                  Office of Intelligence and Analysis
    OIG                  Office of Inspector General
    OSP                  Office of Security Programs
    SF                   Standard Form




                         Treasury Has Policies and Procedures to Safeguard Classified Information
                         But Implementation Needs to Be Improved (OIG-13-055)                                Page i
         This Page Intentionally Left Blank.




Treasury Has Policies and Procedures to Safeguard Classified Information
But Implementation Needs to Be Improved (OIG-13-055)                       Page ii
                                                                                          Evaluation
OIG
The Department of the Treasury
                                                                                            Report
Office of Inspector General




                        September 27, 2013

                        S. Leslie Ireland
                        Assistant Secretary for Intelligence and Analysis

                        This report provides the results of our first evaluation, pursuant to
                        Public Law 111-258, Reducing Over-Classification Act, of the
                        Department of the Treasury’s (Treasury) classification program.
                        The act requires the Inspectors General of each department or
                        agency of the United States with an officer or employee who is
                        authorized to make original classification1 decisions to evaluate the
                        agency’s classification program and identify practices that may
                        contribute to the persistent misclassification2 of material. Our first
                        evaluation under this requirement is to be completed by
                        September 30, 2013. A second evaluation is to be completed by
                        September 30, 2016.

                        In accordance with the act, the evaluation objectives were to
                        (1) assess whether applicable classification policies, procedures,
                        rules, and regulations have been adopted, followed, and effectively
                        administered within Treasury; and (2) identify policies, procedures,
                        rules, regulations, or management practices that may be
                        contributing to persistent misclassification of material. In
                        performing our work, we used applicable portions of an evaluation
                        guide that was prepared by a working group of participating
                        Offices of Inspector General (OIG) on behalf of the Council of the
                        Inspectors General on Integrity and Efficiency.3 We performed our
                        fieldwork from March 2013 to August 2013. Appendix 1 contains

1
  Original classification is the determination by an authorized official that information within specifically
designated categories requires protection against unauthorized disclosure in the interest of national
security. Individuals authorized to make this original determination have original classification authority
and are authorized in writing, either by the President, the Vice President, agency heads, or other
officials designated by the President. Treasury has 13 officials with original classification authority.
2
  Auditor Note: In the context of this report, misclassification is the act of incorrectly classifying, either
over- or under-classifying, information.
3
  Department of Defense OIG, A Standard User’s Guide for Inspectors General Conducting Evaluations
Under Public Law 111-258, the Reducing Over-Classification Act (Jan. 22, 2013).

                        Treasury Has Policies and Procedures to Safeguard Classified Information        Page 1
                        But Implementation Needs to Be Improved (OIG-13-055)
                        a more detailed description of our evaluation objectives, scope, and
                        methodology.

                        In brief, we concluded that Treasury has policies and procedures in
                        place to safeguard classified materials,4 but the implementation of
                        these policies and procedures needs improvement. Heightened
                        attention should be given to (1) marking classified emails; 5
                        (2) completing the annual Standard Form (SF) 311, Agency
                        Security Classification Management Program Data;6 and
                        (3) complying with self-inspection requirements.7 We are making
                        three recommendations to improve the classification management
                        process.

                        In a written response, the Assistant Secretary for Intelligence and
                        Analysis provided corrective actions taken and planned to
                        implement the above recommendations. The management response
                        is summarized in the Recommendations section of the report and
                        the text of the response is included as appendix 2. We believe the
                        corrective actions, taken and planned, are responsive to our
                        recommendations.
Background
                        In December 2009, the President signed Executive Order 13526,
                        Classified National Security Information, which updated
                        classification principles, policies, and procedures and prescribed a


4
  The Treasury Security Manual, General Information, Treasury-wide Security Programs, describes the
process of safeguarding classified materials as identifying, marking, handling, processing, storing,
transmitting, accounting, tracking, and destroying.
5
  Marking is the act of properly labeling sections of classified documents, whether paper copies or
electronic, to indicate (1) the overall level of classification, (2) the paragraph/portion classification,
(3) the name or personal identifier of the classifier, (4) the reason or source of the classification, and
(5) the date or event for declassification.
6
  The SF311 is used to collect data from Executive branch agencies that create and/or handle classified
national security information. Information to be reported includes the number of (1) individuals
designated with original classification authority, (2) original and derivative classification decisions,
(3) mandatory declassification review requests and appeals, (4) pages of decisions declassified,
(5) internal oversight activities including self-inspections conducted, and (6) classification guides created
and used. Classification decisions refer to any recorded information, including documents and e-mails.
7
  Self-inspections are internal reviews and evaluations conducted by agency management for activities
related to classified information. For the Treasury classification management program, the Office of
Security Programs conducts self-inspections of Treasury’s Departmental Offices. Bureau personnel are
responsible for conducting self-inspections of the bureaus’ classification management programs.

                        Treasury Has Policies and Procedures to Safeguard Classified Information      Page 2
                        But Implementation Needs to Be Improved (OIG-13-055)
                        uniform system for classifying, safeguarding, and declassifying 8
                        national security information. The executive order requires heads of
                        agencies that have employees with original classification authority
                        or who handle classified information to designate a senior agency
                        official who is responsible for the classification management
                        process. Within Treasury, the designated senior agency official is
                        the Deputy Assistant Secretary for Security.9 The Deputy Assistant
                        Secretary has oversight of the Office of Security Programs (OSP),
                        which is located within Treasury’s Office of Intelligence and
                        Analysis (OIA).10

                        OSP is responsible for establishing Treasury policies and
                        procedures for classification management based on Executive
                        Order 13526 and other federal sources. The June 2011 update to
                        the Treasury Security Manual11 defines and implements the
                        Department’s classification management policies. OSP is also
                        responsible for (1) developing security training programs,
                        (2) monitoring compliance by Treasury’s Departmental Offices and
                        bureaus with federal and Treasury requirements for classified
                        information, (3) reporting on Treasury's information security
                        programs to the Information Security Oversight Office (ISOO),12
                        and (4) representing Treasury interests on interagency forums.

                        Public Law 111-258, Reducing Over-Classification Act, which
                        became law on October 7, 2010, was intended to address issues
                        highlighted by the 9/11 Commission Report. This report concluded
                        that over-classification and inadequate information sharing
                        contributed to the government’s failure to prevent the attacks of
                        9/11. The report also stated that security requirements nurtured
                        over-classification and excessive compartmentalization of
                        information among agencies.

8
  Declassification is the authorized change in the status of information from classified to unclassified
based on the duration of the national security sensitivity of the information.
9
  Treasury Order 105-19, Delegation of Original Classification Authority; Requirements for Downgrading
and Declassification (June 27, 2011)
10
   OIA was established within Treasury by Public Law 108-177, Intelligence Authorization Act for Fiscal
Year 2004 (Dec. 13, 2003). The office, which is headed by the Assistant Secretary for Intelligence and
Analysis, is responsible for the receipt, analysis, collation, and dissemination of foreign intelligence and
foreign counterintelligence information related to the operation and responsibilities of Treasury.
11
   Treasury Directive Publication 15-71 (June 17, 2011)
12
   ISOO is an office within the National Archives and Records Administration responsible for policy and
oversight of the Government-wide security classification system.

                        Treasury Has Policies and Procedures to Safeguard Classified Information      Page 3
                        But Implementation Needs to Be Improved (OIG-13-055)
Findings
Finding 1              Classified Emails Were Often Improperly Marked
                       According to the Treasury Security Manual, classifiers must ensure
                       that the application of required markings on electronic documents
                       include (1) subject line and paragraph/portion markings, (2) the
                       overall classification on the top and bottom of each page, and
                       (3) the completion of the classification authority block.13

                       In the first half of fiscal year 2013, OSP personnel conducted two
                       self-inspections that included 330 derivatively classified emails and
                       attachments generated by 38 OIA employees. As shown in
                       Table 1, OSP found that 4 percent of reviewed classified emails
                       had all of the required markings and were considered properly
                       marked. However, OSP noted that 31 percent of the emails did not
                       contain portion markings14 and 63 percent of the emails were
                       categorized as “did not appear to be classified.” OSP personnel told
                       us that this category included classified email strings with
                       unclassified information that did not have portion markings to
                       indicate that unclassified information was discussed. The OSP
                       reviews also disclosed that 2 percent of the documents had
                       markings that were not easily categorized into the other 3
                       descriptions.

     Table 1. Results of OSP’s Self-Inspections of Derivatively Classified Emails and Attachments
                                             Number of Documents (Percent)
                                                                      Included
                                                        Lacked      Information
       Date of Self-                                   Required    that Did Not
        Inspection                    Properly          Portion    Appear to Be                    Included
          Report       Reviewed        Marked          Markings      Classified                   Other Errors
     11/01/2012               121         10 (8%)        40 (33%)       64 (53%)                        7 (6%)
     04/05/2013               209          4 (2%)        62 (30%)     143 (68%)                         0 (0%)
     Total                    330         14 (4%)      102 (31%)      207 (63%)                         7 (2%)
     Source: OIG’s summary of OSP’s self-inspection reports


13
   The classification authority block consists of (1) a “Classified By” line to identify who prepared the
document, (2) the “Reason for” or “Derived from” classification line, and (3) a “Declassify On” line that
indicates the length of the classification.
14
   The Treasury Security Manual, Chapter 3, Section 6, requires portion markings on a subject line,
paragraph, or portion of all classified documents, whether paper or electronic, to indicate whether they
are classified and the specific level of classification.

                       Treasury Has Policies and Procedures to Safeguard Classified Information           Page 4
                       But Implementation Needs to Be Improved (OIG-13-055)
                      OSP personnel told us that the incomplete markings found during
                      the self-inspections may have resulted from employees (1) not
                      taking the time to properly mark the emails, (2) not believing that
                      the markings were important, or (3) unintentionally “replying to” or
                      “forwarding” an email without realizing that such actions were
                      classification decisions. To address these issues, OSP developed a
                      handout to remind employees that classification markings must
                      appear on all emails.

                      Treasury is responsible for ensuring that classified information is
                      properly safeguarded. The lack of proper classification markings
                      makes it difficult for the recipient of an email to determine the
                      proper classification level for the information in that email.

Finding 2             Treasury’s SF311 Reporting to the Information Security
                      Oversight Office Was Incomplete and Inaccurate

                      ISOO uses data collected on the SF311 from Executive branch
                      agencies that handle and generate classified national security
                      information to report statistics in its annual report to the President.
                      For fiscal years 2011 and 2012, OSP did not provide ISOO with a
                      complete and accurate count of Treasury’s overall derivative and
                      original classification decisions on the SF311.

                      For fiscal year 2011, OSP reported 12,733 derivative classification
                      decisions to ISOO. However, when we performed a mathematical
                      check of the internally submitted data by Treasury’s Departmental
                      Offices and bureaus to OSP,15 we found that the total was much
                      smaller, only 6,123 decisions. For fiscal year 2012, Treasury
                      reported 20,179 derivative classification decisions to ISOO, but we
                      recalculated the internally submitted reports to OSP and found that
                      the total was 20,076 decisions. In addition to these differences,
                      we found that the Treasury totals reported to ISOO for these fiscal
                      years also did not include derivative classification decision counts
                      for the Office of Foreign Assets Control (OFAC), a Treasury office
                      that regularly handles classified information.



15
  Treasury’s Departmental Offices and bureaus are required to provide their SF311 to OSP by
November 1st of each year for inclusion in Treasury’s consolidated SF311 report to ISOO. The
consolidated SF311 report is to be submitted to ISOO by November 15th.

                      Treasury Has Policies and Procedures to Safeguard Classified Information   Page 5
                      But Implementation Needs to Be Improved (OIG-13-055)
            When we asked about the differences between the number of
            reported derivative classification decisions to ISOO and those
            internally submitted by Treasury’s Departmental Offices and
            bureaus, OSP personnel could not provide an explanation as to why
            there were discrepancies. With respect to the omission of OFAC’s
            derivative classification decisions, OSP personnel told us that
            multiple requests were made to OFAC, but the data was not
            submitted. During an interview, an OFAC employee told us that he
            thought OFAC had filed a report for fiscal year 2011 because he
            recalled completing the document count. However, when we asked
            for a copy of the submission to OSP, neither OFAC nor OSP had a
            copy. For fiscal year 2012, OFAC personnel told us that the OSP
            request was overlooked. OFAC subsequently reported to OSP, in
            May 2013, after we made the inquiry, that it made 7,358
            derivative classification decisions during fiscal year 2012.

            In addition to reporting incomplete derivative classification decision
            counts in the fiscal year 2012 SF311 to ISOO, Treasury reported
            four original classification decisions. But when we reviewed these
            reports and supporting documentation with Treasury’s
            Departmental Offices and bureaus that reported the information,
            we found that there were no original classification decisions for the
            fiscal year. In fact, the two original classification decisions were
            actually made in fiscal year 2013, not fiscal year 2012; and the
            other two original classification decisions were misreported. Neither
            were original classification decisions; they were both derivative
            classification decisions and should have been reported as such. An
            OSP representative told us that he questioned three of the four
            decisions that were reported, but was assured by the reporting
            bureau that the information was correct. OSP accepted the other
            reported original decision as reasonably reported by the bureau.

Finding 3   Treasury’s Self-Inspection Program Needs Improvement
            Prescribed by the Treasury Security Manual, the annual
            self-inspection process is a key control within Treasury to ensure
            the protection of classified information. The manual delegates the
            methodology for conducting these self-inspections to officials




            Treasury Has Policies and Procedures to Safeguard Classified Information   Page 6
            But Implementation Needs to Be Improved (OIG-13-055)
                       within Departmental Offices and bureaus.16 These officials are
                       required to:

                              Document their findings and recommendations for
                               improvement or enhancement.
                              Indicate that all reviewed records, documents, briefings, and
                               activities complied with Executive Order 13526 and
                               applicable implementing directives.
                              Identify noted discrepancies and indicate whether corrective
                               action will be or have been taken.
                              Conduct and document follow-up actions taken where
                               individual self-inspections have identified such a particular
                               need.
                              Provide copies of corrective actions to address noted
                               discrepancies to the Director, OSP, as necessary.
                              Conduct at least one self-inspection annually that includes
                               document reviews if the office generates classified
                               information.

                       Overall, OSP is responsible for managing Treasury’s classified
                       program and is required by the Treasury Security Manual to
                       monitor Treasury’s compliance with federal and Treasury mandates
                       for classified information.

                       For fiscal years 2011 and 2012, we found that one Treasury
                       bureau that generated classified information properly completed the
                       required self-inspections while four others either did not complete
                       the self-inspections or completed the inspections but did not retain
                       documentation. OSP performed and documented self-inspections
                       for those offices within Treasury’s Departmental Offices that
                       generated classified information, but the scope of those inspections
                       only included emails and attachments. OSP did not review
                       classified documents generated outside of the electronic
                       environment and this report is based on a review of OSP’s findings.

                       OSP personnel told us they assume that bureaus are properly
                       performing self-inspections because the bureaus should know their

16
  The Treasury Security Manual provides examples of procedures that could be taken to conduct a
self-inspection. Examples include, but not limited to, (1) reviewing relevant security directives,
guidelines, and instructions for currency and applicability; (2) reviewing access and control records and
procedures; (3) sampling actual and electronically processed original and derivative classified
documents; and (4) evaluating employee training, and if needed, modifying the training.

                       Treasury Has Policies and Procedures to Safeguard Classified Information     Page 7
                       But Implementation Needs to Be Improved (OIG-13-055)
                       responsibilities. OSP personnel also told us that they get involved
                       only when they become aware that a bureau is not following
                       procedures. We believe a more proactive approach by OSP is
                       necessary to ensure that OSP and bureaus are performing and
                       documenting self-inspections in accordance with the Treasury
                       Security Manual.

Recommendations
                       We recommend that the Assistant Secretary for Intelligence and
                       Analysis direct the Deputy Assistant Secretary for Security to:

                       1. Remind employees who work with classified information about
                          the requirement in the Treasury Security Manual to properly
                          mark classified emails and provide initial training on marking
                          requirements when an employee is first given access to
                          Treasury classified email systems and periodic refresher training
                          thereafter.

                           Management Comments

                           Training on properly marking classified information is routinely
                           provided to employees both initially when receiving their
                           security clearance and annually through refresher training about
                           required markings. OSP strives to develop comprehensive and
                           tailored training and will work more closely with Treasury’s
                           Departmental Offices when developing training modules and
                           ensure that training is accessible in some form to all bureau
                           personnel. The referenced training serves to remind employees
                           authorized access to classified information of their obligations to
                           properly mark and safeguard that information. OSP will review
                           Treasury Directive Publication 15-71 with respect to marking
                           electronic media to determine whether it should allow for the
                           same flexibility authorized by ISOO in their implementing
                           regulation.17




17
  Auditor Note: 32 CFR Part 2001, Classified National Security Information, states that classified
national security information in the electronic environment shall be marked with proper classification
markings to the extent that such marking is practical including portion marking, overall classification,
and the classification authority block.

                       Treasury Has Policies and Procedures to Safeguard Classified Information      Page 8
                       But Implementation Needs to Be Improved (OIG-13-055)
    OIG Comment

    Management’s action, taken and planned, meets the intent of
    our recommendation. Management will need to record an
    estimated date for completing its planned actions in the Joint
    Audit Management Enterprise System (JAMES), Treasury’s
    audit recommendation tracking system.

2. Implement controls to ensure that an accurate and complete
   Treasury consolidated SF311 is submitted to ISOO. OSP should
   review Treasury’s Departmental Offices’ and bureaus’ internally
   reported information on classification decisions and other
   classification information for reasonableness. OSP should also
   ensure that those offices expected to have classification
   information submit the required information for the consolidated
   SF311.

    Management Comments

    OSP requests clarification when Departmental Offices and
    bureaus submit questionable SF311 information. One office, for
    their fiscal year 2013 reporting, agreed to use a 2-week
    sampling to extrapolate their classification volume. Assuming
    meaningful results come from the 2-week sampling, OSP will
    suggest it for the largest Treasury components that generate
    classified information starting with the fiscal year 2014 report,
    as well as provide appropriate training to their employees on the
    sampling requirement and methodology.

    OIG Comment

    Management’s action, taken and planned, meets the intent of
    our recommendation. Management will need to record an
    estimated date for completing its planned actions in JAMES.

3. Implement controls to ensure that Treasury bureaus with
   employees who handle and generate classified information
   conduct annual self-inspections in accordance with the Treasury
   Security Manual, document the results, and submit reports to
   the Director of OSP. In this regard, the scope of inspections



Treasury Has Policies and Procedures to Safeguard Classified Information   Page 9
But Implementation Needs to Be Improved (OIG-13-055)
    performed by OSP should include reviews of both emails and
    documents created outside the electronic environment.

    Management Comments

    OSP performs self-inspections in Departmental Offices each
    quarter. These include both physical and information security
    aspects. In fiscal year 2014, OSP will start cross-training within
    OSP to have an additional person fully trained in the information
    security discipline. OSP will require copies of self-inspection
    reports when they are reported by bureaus, and include this
    requirement in Treasury Directive Publication 15-71. In addition,
    OSP is taking steps to increase its personnel resources in the
    information security discipline to ensure oversight of bureau
    self-inspection and reporting requirements. OSP will also
    consider revising the directive to clarify the responsibilities of
    those components with few or no classified holdings, where
    internal access procedures equate to performing daily self-
    inspections and to have them self-inspect on other aspects of
    their individual information security program.

    OIG Comment

    Management’s action, taken and planned, meets the intent of
    our recommendation. Treasury will need to record an estimated
    date for completing its planned actions in JAMES.

                                    ******

We appreciate the courtesies and cooperation extended by your
staff as we inquired about these matters. Major contributors to this
report are listed in appendix 3. A distribution list for this report is
provided as appendix 4. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Kieu Rubb, Audit Director, at
(202) 927-5904.



/s/
Marla A. Freedman
Assistant Inspector General for Audit


Treasury Has Policies and Procedures to Safeguard Classified Information   Page 10
But Implementation Needs to Be Improved (OIG-13-055)
                       Appendix 1
                       Objectives, Scope, and Methodology




                       Public Law 111-258, Reducing Over-Classification Act, Section
                       6(b), requires the Inspector General of each department or agency
                       with an officer or employee who is authorized to make original
                       classifications to (1) assess whether applicable classification
                       policies, procedures, rules, regulations have been adopted,
                       followed, and effectively administered; and (2) identify policies,
                       procedures, rules, regulations, or management practices that may
                       be contributing to persistent misclassification of material. The act
                       called for two evaluations, this first to be completed by
                       September 30, 2013, and the second evaluation to be completed
                       by September 30, 2016.

                       The focus of this evaluation was the Department of the Treasury’s
                       (Treasury) policies and procedures related to classification training,
                       self-inspections, and the completion of the Standard Form
                       (SF) 311, Agency Security Classification Management Program
                       Data.

                       We conducted fieldwork in Washington, DC, at the Office of
                       Terrorism and Financial Intelligence, 18 the Office of General
                       Counsel, the Office of International Affairs, the Office of
                       Management, the Office of Inspector General, the Bureau of
                       Engraving and Printing, the U.S. Mint, and the Bureau of the Fiscal
                       Service.19 We also conducted fieldwork in Vienna, Virginia at the
                       Financial Crimes Enforcement Network. Our evaluation did not
                       include the Internal Revenue Service.20 Our evaluation scope
                       covered the period from October 2010 to May 2013. We
                       conducted our fieldwork from March 2013 through August 2013.

                       To accomplish our objectives we

                          reviewed federal and Treasury rules, regulations, policies, and
                           procedures, including:

18
   Treasury’s Departmental Offices and bureaus reporting to the Office of Terrorism and Financial
Intelligence include the Financial Crimes Enforcement Network, the Office of Terrorist Financing and
Financial Crimes, the Office of Intelligence and Analysis, and the Office of Foreign Assets Control.
19
   Our evaluation focused on the legacy Bureau of the Public Debt which in October 2012 was
consolidated with the legacy Financial Management Service and redesignated as the Bureau of the
Fiscal Service.
20
   The Internal Revenue Service, under the jurisdictional oversight of the Treasury Inspector General for
Tax Administration, does not have an individual designated with an original classification authority.
Furthermore, our review of the Treasury SF311 process disclosed that the Internal Revenue Service
reported zero derivative classification decisions for fiscal years 2011 and 2012.

                       Treasury Has Policies and Procedures to Safeguard Classified Information    Page 11
                       But Implementation Needs to Be Improved (OIG-13-055)
Appendix 1
Objectives, Scope, and Methodology




            o Executive Order 13526, Classified National Security
              Information (Dec. 29, 2009)
            o 32 CFR Part 2001, Classified National Security
              Information (June 28, 2010)
            o Public Law 111-258, Reducing Over-Classification Act
              (Oct. 7, 2010)
            o Treasury Security Manual, Treasury Directive
              Publication 15-71 (June 17, 2011)
            o Treasury Order 105-19, Delegation of Original
              Classification Authority; Requirements for
              Downgrading and Declassification (June 27, 2011).
   interviewed the Deputy Assistant Secretary of Security and
    Office of Security Programs (OSP) employees who are
    responsible for directing and guiding the protection of
    personnel, information, facilities, and assets; and promoting
    security awareness within Treasury.
   interviewed personnel at the various bureaus who are
    responsible for security and training.
   reviewed training materials posted on Treasury’s internal
    websites and paper copies of training documents and obtained
    the 2011 and 2012 training records of Treasury officials with
    original classification authority.
   reviewed OSP’s quarterly self-inspection reports on Treasury’s
    Departmental Offices from January 2011 through March 2013
    and the Financial Crimes Enforcement Network’s self-inspection
    reports from fiscal years 2011 and 2012.
   reviewed Treasury’s SF311 for fiscal years 2011 and 2012
    prepared by OSP, and related data on original classification
    decisions and derivative classification decisions provided to OSP
    by Treasury’s Departmental Offices and bureaus. We
    interviewed Treasury personnel with responsibilities for
    completing the SF311.

As directed by the act, we coordinated our evaluation with other
Offices of Inspector General with the intent of ensuring that our
evaluations followed a consistent methodology to allow for cross-
agency comparisons. In performing our work, we used applicable
portions of an evaluation guide that was prepared by the working



Treasury Has Policies and Procedures to Safeguard Classified Information   Page 12
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 1
Objectives, Scope, and Methodology




group of participating Offices of Inspector General on behalf of the
Council of the Inspectors General on Integrity and Efficiency.

We conducted this evaluation in accordance with Quality Standards
for Inspections and Evaluations issued by the Council of the
Inspectors General on Integrity and Efficiency.




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 13
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 2
Management Response




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 14
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 2
Management Response




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 15
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 3
Major Contributors to This Report




Kieu T. Rubb, Audit Director
Gregory J. Sullivan Jr., Audit Manager
Regina A. Morrison, Auditor-in-Charge
Brigit A. Hoover, Auditor
Alex M. Taubinger, Referencer




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 16
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 4
Report Distribution




Department of the Treasury

    Secretary of the Treasury
    Deputy Secretary
    Under Secretary for Terrorism and
       Financial Intelligence
    Deputy Assistant Secretary for Security
    Director, Office of Security Programs

Information Security Oversight Office

    Director

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Homeland Security and Government Affairs

    Chairman and Vice Chairman
    Select Committee on Intelligence

    Chairman and Ranking Member
    Committee on Finance

    Chairwoman and Vice Chairman
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 17
But Implementation Needs to Be Improved (OIG-13-055)
Appendix 4
Report Distribution




U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Homeland Security

    Chairman and Ranking Member
    Permanent Select Committee on Intelligence

    Chairman and Ranking Member
    Committee on Oversight and Government Reform

    Chairman and Ranking Member
    Committee on Financial Services

    Chairman and Ranking Member
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations




Treasury Has Policies and Procedures to Safeguard Classified Information   Page 18
But Implementation Needs to Be Improved (OIG-13-055)
